        AUDIT REPORT

           Audit of NRC’s Oversight of
Independent Spent Fuel Storage Installations Safety


           OIG-11-A-12     May 19, 2011




All publicly available OIG reports are accessible through
                    NRC’s Web site at:
http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  May 19, 2011


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF INDEPENDENT
                            SPENT FUEL STORAGE INSTALLATIONS SAFETY
                            (OIG-11-A-12)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of Independent Spent Fuel Storage Installations (ISFSIs) Safety.

The report presents the results of the subject audit. Agency comments provided at the
April 26, 2011, exit conference have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Team, at
415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Mary C. Muessle, Acting Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                      Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety




EXECUTIVE SUMMARY

   BACKGROUND

        The United States has entered a period where the national policy for
        storing, reprocessing, and disposal of spent nuclear fuel is being
        reexamined. With the prospect of spent nuclear fuel being stored at
        reactor sites for the foreseeable future due to the uncertainty surrounding
        the proposed Yucca Mountain repository program, the Nuclear Regulatory
        Commission (NRC) has been reviewing the issues associated with long-
        term storage.

        An independent spent fuel storage installation (ISFSI) is an NRC licensed
        facility designed and constructed for the interim storage of spent nuclear
        fuel and other radioactive materials associated with the spent fuel. An
        ISFSI typically consists of a concrete storage pad, storage containers
        (casks), and any support facilities.

        The majority of ISFSIs are located at operating reactor sites. Other
        ISFSIs are located away-from-reactors and typically operate at sites
        where decommissioning related to reactor operations is complete. As of
        April 2011, there were ISFSIs storing spent nuclear fuel or preparing to
        store spent nuclear fuel in the near term at 57 different locations across
        the United States. Of these ISFSI sites, 47 were located at operating
        reactors and the remaining 10 were located away from an operating
        reactor.

        NRC’s safety oversight program for spent fuel storage is designed to
        prevent radiation-related deaths and illnesses, and protect the
        environment. The oversight program includes inspections and
        assessments of licensee and vendor activities with a focus on minimizing
        risk to public health and safety. NRC periodically inspects the design,
        fabrication, and use of dry cask storage systems by sending inspectors to
        licensee and cask vendor facilities. Inspectors follow agency guidance
        that contains objectives and procedures to use for each type of inspection.
        Upon completion of these inspections, NRC issues reports to document
        the inspection findings.




                                           i
                    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


PURPOSE

      The audit objective was to determine if NRC has the requisite processes
      in place for reviewing ISFSIs safety. Appendix B contains information on
      the audit scope and methodology.

RESULTS IN BRIEF

      The nuclear industry is expecting that by 2025 all commercial nuclear
      power plants in the United States will have operational ISFSIs at their
      sites. Currently, there are 104 operating nuclear reactors in the United
      States. This unprecedented growth in operational ISFSIs, coupled with an
      uncertainty surrounding the fate of a national high-level waste repository,
      brings NRC’s oversight of ISFSI safety to the forefront. NRC's oversight
      program for ISFSI safety is designed to prevent radiation-related deaths
      and illnesses and protect the environment. Although there have been no
      significant issues at ISFSIs, the Office of the Inspector General identified
      opportunities for improvement within the ISFSI safety inspection program
      in the following two areas:

             ISFSI safety inspector training.

             Frequency of routine ISFSI inspections.

      Opportunities Exist To Improve ISFSI Safety Inspector Training

      NRC conducts ISFSI safety inspections with regional, resident, and
      headquarters-based inspectors. The training requirements for these
      inspectors vary. Although it is NRC’s policy to assign only trained and
      qualified individuals with the knowledge and aptitude to perform onsite
      inspection activities consistent with agency expectations, there is no
      formalized agencywide training program for ISFSI safety inspectors.
      When ISFSI safety inspectors do not have a consistent understanding of
      agency inspection requirements, oversight can be compromised.
      Specifically, there is an increased potential for inadequate inspections to
      occur, which could result in an increased risk to public health and safety.




                                        ii
                   Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety



     Routine ISFSI Inspection Frequency Varies Among Regions

     The period between routine ISFSI inspections varies among regions from
     1 to almost 6 years. Although NRC expects a level of consistency in the
     performance of ISFSI inspections, inspection frequencies vary because
     the frequency required to conduct routine ISFSI inspections is not clearly
     defined. Routine ISFSI safety inspections could be delayed indefinitely
     without clearly defined inspection frequency guidance, potentially
     increasing the risk to public health and safety.

RECOMMENDATIONS

     This report makes two recommendations to improve the agency’s
     oversight of ISFSIs safety. A consolidated list of these recommendations
     appears in Section IV of this report.

AGENCY COMMENTS

     An exit conference was held with the agency on April 26, 2011. At this
     meeting, agency management provided supplemental information that has
     been incorporated into this report as appropriate. As a result, agency
     management stated their general agreement with the findings and
     recommendations in this report and opted not to provide formal comments
     for inclusion in this report.




                                       iii
                Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety




ABBREVIATIONS AND ACRONYMS

       IMC     Inspection Manual Chapter

       ISFSI   Independent Spent Fuel Storage Installation

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General




                                    iv
                           Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS ......................................... iv

        I.     BACKGROUND .................................................................. 1

        II.    PURPOSE ......................................................................... 5

        III.   FINDINGS........................................................................... 6

                 A. OPPORTUNITIES EXIST TO IMPROVE ISFSI
                    SAFETY INSPECTOR TRAINING ....................................... 6

                 B. ROUTINE ISFSI INSPECTION FREQUENCY
                    VARIES AMONG REGIONS ........................................... 14

        IV.    CONSOLIDATED LIST OF RECOMMENDATIONS ......... 17

        V.     AGENCY COMMENTS ..................................................... 17

        APPENDIX

                 A.     WASTE CONFIDENCE DECISION ....................... 18

                 B.     SCOPE AND METHODOLOGY ............................. 20




                                                  v
                     Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety



I.    BACKGROUND

                The United States has entered a period where the national
                policy for storing, reprocessing, and disposal of spent nuclear
                fuel1 is being reexamined. With the prospect of spent nuclear
                fuel being stored at reactor sites for the foreseeable future due
                to the uncertainty surrounding the proposed Yucca Mountain
                repository program, the Nuclear Regulatory Commission (NRC)
                has been reviewing the issues associated with long-term
                storage.

                Independent Spent Fuel Storage Installations

                An independent spent fuel storage installation (ISFSI) is an
                NRC licensed facility designed and constructed for the interim
                storage of spent nuclear fuel and other radioactive materials
                associated with the spent fuel. An ISFSI typically consists of a
                concrete storage pad, storage containers (casks), and any
                support facilities.2 The casks are typically steel cylinders that
                are either welded or bolted closed. The steel cylinder provides
                a leak-tight containment of the spent fuel. Surrounding each
                cylinder with additional steel, concrete, or other material
                provides radiation shielding to workers and members of the
                public. The casks can either be stored vertically on a storage
                pad or horizontally in concrete storage bunkers (see Figure 1).




1
  Spent nuclear fuel or spent fuel means fuel that has been withdrawn from a nuclear reactor
following irradiation, has undergone at least 1 year's decay since being used as a source of
energy in a power reactor, and has not been chemically separated into its constituent
elements by reprocessing.
2
 NRC regulations allow the storage of spent fuel in both pool-type wet storage and dry casks.
There is one pool-type wet storage ISFSI in the United States.
                                                1
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety




Figure 1. Dry cask storage
Source: NRC

The majority of ISFSIs are located at operating reactor sites.
Other ISFSIs are located away-from-reactors and typically
operate at sites where decommissioning related to reactor
operations is complete. As of April 2011, there were ISFSIs
storing spent nuclear fuel or preparing to store spent nuclear
fuel in the near term at 57 different locations across the United
States. Of these ISFSI sites, 47 were located at operating
reactors and the remaining 10 were located away from an
operating reactor.

Recent Regulatory Action

On December 23, 2010, NRC’s Commission published its
generic determination that, if necessary, spent fuel generated in
any reactor can be stored safely and without significant
environmental impacts for at least 60 years beyond the licensed
life for operation (which may include the term of a revised or
renewed license) of that reactor. This storage would occur in a



                               2
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


combination of spent fuel storage pools or dry casks at either
onsite or away-from-reactor ISFSIs. Appendix A of this report
contains an overview of this decision, known as the Waste
Confidence Decision.




Figure 2. ISFSI at the Dresden Nuclear Power Plant
Source: Holtec International Web site


NRC’s Oversight of ISFSI Safety

NRC's safety oversight program for spent fuel storage is
designed to prevent radiation-related deaths and illnesses, and
protect the environment. The oversight program includes
inspections and assessments of licensee and vendor activities
with a focus on minimizing risk to public health and safety. NRC
periodically inspects the design, fabrication, and use of dry cask
storage systems by sending inspectors to licensee and cask
vendor facilities. Inspectors follow agency guidance that
contains objectives and procedures to use for each type of
inspection. Upon completion of these inspections, NRC issues
reports to document the inspection findings.




                               3
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


Roles and Responsibilities

The Office of Nuclear Material Safety and Safeguards, Division
of Spent Fuel Storage and Transportation, Rules, Inspections,
and Operations Branch, at NRC headquarters maintains overall
management of the spent fuel storage inspection program. The
branch develops inspection policy, procedures, and guidance on
spent fuel storage. Additionally, the branch conducts
inspections of spent fuel storage system vendors and provides
technical and programmatic assistance to the NRC regions in
conducting safety inspections of ISFSIs. The branch has
recently begun an independent self-assessment focusing, in
part, on the ISFSI safety inspection process.

Performing ISFSI safety inspections is primarily a regional
responsibility. Each of NRC’s four regional offices manages,
plans, schedules, and implements an ISFSI safety inspection
program. Staff trained in various disciplines conduct these
inspections throughout the regions. For example, some regions
use health physicists, while others use reactor inspectors.
Routine ISFSI safety inspections may last up to 1 week, while
pre-operational inspections may last several weeks.




Figure 3. Fuel assembly loading at the Brunswick nuclear power plant
Source: Office of the Inspector General, NRC



                               4
                     Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


                For fiscal year 2011, NRC’s ISFSI safety oversight program
                budget (including project management and response to
                incidents and events for headquarters and the regions) consists
                of 11 full time equivalents, equating to a cost of approximately
                $1.65 million. Some staff are not assigned to the ISFSI safety
                oversight program full time; they also perform other duties. As a
                result, there are more than 11 people working on the ISFSI
                safety oversight program.



II.   PURPOSE

                The audit objective was to determine if NRC has the requisite
                processes in place for reviewing ISFSIs safety.3 Appendix B
                contains information on the audit scope and methodology.




3
  The original objective of this audit, as noted in the Office of the Inspector General’s fiscal
year 2011 Annual Plan, was to determine if NRC has the requisite processes in place for
reviewing and approving ISFSIs. The objective was narrowed during fieldwork to specifically
focus on reviewing ISFSIs safety.
                                                5
              Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety



III. FINDINGS

          The nuclear industry is expecting that by 2025 all commercial
          nuclear power plants in the United States will have operational
          ISFSIs at their sites. Currently, there are 104 operating nuclear
          reactors in the United States. This unprecedented growth in
          operational ISFSIs, coupled with an uncertainty surrounding the
          fate of a national high-level waste repository, brings NRC’s
          oversight of ISFSI safety to the forefront. NRC's oversight
          program for ISFSI safety is designed to prevent radiation-related
          deaths and illnesses and protect the environment. Although
          there have been no significant issues at ISFSIs, the Office of the
          Inspector General (OIG) identified opportunities for
          improvement within the ISFSI safety inspection program in the
          following two areas:

                 ISFSI safety inspector training.

                 Frequency of routine ISFSI inspections.


    A. Opportunities Exist To Improve ISFSI Safety Inspector Training

          NRC conducts ISFSI safety inspections with regional, resident,
          and headquarters-based inspectors. The training requirements
          for these inspectors vary. Although it is NRC’s policy to assign
          only trained and qualified individuals with the knowledge and
          aptitude to perform onsite inspection activities consistent with
          agency expectations, there is no formalized agencywide training
          program for ISFSI safety inspectors. When ISFSI safety
          inspectors do not have a consistent understanding of agency
          inspection requirements, oversight can be compromised.
          Specifically, there is an increased potential for inadequate
          inspections to occur, which could result in an increased risk to
          public health and safety.




                                         6
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety




Figure 4. A cask being set on an ISFSI with a Vertical Cask Transporter
Source: Holtec International Web site


Maintaining Technical Excellence and Regulatory Process
Proficiency

NRC is dedicated to maintaining its technical excellence and
regulatory process proficiency now and in the future through a
strategic approach to training, development, and knowledge
management. NRC’s policy is that only trained and qualified
individuals, who have the knowledge and aptitude to perform
onsite activities, should perform ISFSI safety inspections.
Management is responsible for overseeing employees who
conduct onsite activities by:

       Clearly establishing and communicating performance
       expectations.
       Providing staff development opportunities.
       Ensuring that onsite inspections are conducted as
       intended.

Training Requirements Vary Among Staff

ISFSI safety inspector training requirements vary among the
regional, resident, and headquarters-based inspectors.
Regional inspectors conduct pad construction, pre-operational,
initial loading, and (with the exception of Region II) routine ISFSI
                            7
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


safety inspections. In Region II, resident inspectors conduct the
routine ISFSI safety inspections. Headquarters inspectors focus
primarily on inspections of the cask manufacturing program;
however, they also assist the regional inspectors with ISFSI
safety inspections. When conducting safety inspections at
ISFSIs, all inspectors use the same NRC inspection guidance,
although the training they receive to implement the guidance
varies.

Training Requirements

Typically, NRC inspectors qualify to conduct ISFSI safety
inspections by completing one of the following qualification
programs:

       Inspection Manual Chapter (IMC) 1245, Operating
       Reactor Programs.

       IMC 1246, Section VI, Attachment 2, Spent Fuel Storage
       and Transportation Inspector.

       IMC 1246, Section IX, Decommissioning Inspectors.

       Region I’s ISFSI inspector qualification program.


Specific regional requirements further add to the variations
found among these qualification programs. For example,
Region I’s current qualification program was developed based
on a need for additional ISFSI training. This qualification
program requires that inspectors qualify under IMC 1246,
Section II, Materials Health Physics Inspector. Inspectors-in-
training must then successfully perform an ISFSI inspection
while observed by a qualified ISFSI Inspector, review additional
ISFSI related guidance, and be interviewed by the
decommissioning branch chief. In Region III, inspectors
typically supplement decommissioning (IMC 1246, Section IX)




                               8
                     Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


                or operating reactor (IMC 1245) qualifications with additional
                ISFSI training found in the Spent Fuel Storage and
                Transportation Inspector (IMC 1246, Section VI, Attachment 2)
                qualification program.

                The NRC programs used to qualify ISFSI inspectors require no
                classroom training in areas such as concrete technology, the
                use of cranes for heavy loads, and welding inspection
                techniques. However, specialized knowledge in these areas
                may be required when conducting critical inspection activities
                such as pad fabrication, dry runs, and initial loading campaigns.4
                As such, some ISFSI inspectors have taken additional training
                in these areas. NRC also utilizes experts in these fields, from
                across the agency, to assist ISFSI inspectors when specific
                needs arise.

                Training in Development

                Realizing the need for a formal ISFSI inspector qualification
                process, Region I requested to take the lead in developing an
                agencywide ISFSI safety inspector qualification program. In
                authorizing this request, the Director, Division of Spent Fuel
                Storage and Transportation, Office of Nuclear Material Safety
                and Safeguards, stated that coordinating this effort with the
                other regions will allow for a more consistent qualification
                program for ISFSI inspectors. Region I, with assistance from
                the regions, headquarters, and NRC’s Technical Training
                Center, is currently developing the new ISFSI qualification
                program, although it is not complete.

4
 NRC conducts pad fabrication inspections to ensure that requirements contained in the
Safety Analysis Report, Safety Evaluation Report, and license or technical specifications
have been properly incorporated into construction of the ISFSI storage pad. The Safety
Analysis Report is submitted by the applicant (licensee) and the Safety Evaluation Report is
NRC’s response.

NRC conducts dry run inspections to ensure that the licensee has developed, implemented,
and evaluated preoperational testing activities to safely load spent fuel from the spent fuel
pool into a dry cask storage system and to transfer the loaded cask to the ISFSI in
accordance with the requirements for the particular cask storage system used.

NRC conducts initial loading inspections to ensure that the licensee provides reasonable
assurance that the spent fuel can be handled, stored, and retrieved without undue risk to the
health and safety of the public.
                                                9
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


Inconsistent Understanding of Agency Requirements

Current ISFSI safety inspector training does not provide
inspectors with a consistent understanding of NRC’s inspection
requirements. Specifically, NRC staff do not have a consistent
understanding of the agency’s requirements relating to ISFSI
inspections, the use of enforcement at ISFSIs, and the role of
resident inspectors at sites with ISFSIs.




Figure 5. An aerial view of an away-from-reactor ISFSI
Source: Connecticut Yankee Atomic Power Company


Inconsistent Understanding of ISFSI Inspection
Requirements

Agency staff does not have a consistent understanding of
requirements relating to the inspections of ISFSIs. NRC
procedures require that inspectors assess the overall material
condition of the ISFSI facility as it pertains to the safe operation of
the ISFSI. The procedures also require that inspectors verify by
direct observation that any radioactive material present at the
ISFSI is properly controlled and stored in accordance with site
requirements. Among the regions, ISFSI safety inspectors have
an inconsistent understanding regarding the implementation of
safety inspection requirements. Specifically, ISFSI safety
inspectors in one region believe that it is acceptable to walk
around the perimeter of an ISFSI to perform inspection activities,
rather than actually enter the ISFSI pad. Inspectors from other
                         10
                     Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


                regions disagree with this inspection methodology, explaining that
                it is important to walk onto the pad in order to assess the
                condition of the casks and to make sure that the airflow cooling
                vents of the casks are unobstructed. For example, birds or
                squirrels sometimes block these vents with nests.

                Inconsistent Understanding of ISFSI Enforcement
                Requirements

                Agency staff do not have a consistent understanding of
                requirements relating to the use of enforcement at ISFSIs.
                Some ISFSI safety inspectors are unsure if enforcement can
                occur during a dry run. Some inspectors consider dry runs free
                from enforcement, while another stated that inspectors act as
                “consultants” during dry runs. A regional branch chief explained
                that NRC’s role during dry runs is that of an “observer” rather
                than an inspector. This branch chief was also unsure if
                enforcement could occur during a dry run. A regional deputy
                division director stated that NRC could cite licensees for
                violations observed during dry runs; dry runs are not free from
                enforcement.

                Inconsistent Understanding of the Role of Resident
                Inspectors at Sites with ISFSIs

                Agency staff do not have a consistent understanding of the role
                of resident inspectors at ISFSIs. OIG interviewed at least one
                resident inspector or senior resident inspector from 45 of the
                operating reactors that have an ISFSI.5 The results of these 64
                interviews follow:

                         ISFSI Safety Involvement - Overall, 36 percent reported
                         being involved with ISFSI safety, while 55 percent
                         reported limited involvement. Finally, 9 percent of the
                         resident inspectors reported no involvement with ISFSI
                         safety.


5
  Inspectors from each of the 47 reactors sites with ISFSIs were interviewed, although only
interviews from the inspectors at the reactor sites with ISFSIs currently storing spent nuclear
fuel were included in the interview results.
                                               11
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


       Management Expectations - Only 28 percent stated that
       NRC management had conveyed any expectations
       regarding their duties pertaining to ISFSI safety.

       ISFSI Hours Allocation – 70 percent stated that there are
       no hours specifically allocated to resident inspectors for
       ISFSI safety inspections.

       ISFSI Training – Approximately 77 percent stated that
       they had received no ISFSI related training, while 22
       percent stated that they had received very generic ISFSI
       training.

A senior resident inspector stated that determining who is
responsible for observing various inspection segments during
cask loading is difficult. The inspector continued that he would
like to see the responsibilities better defined. Another resident
inspector stated that he would like to receive ISFSI training;
currently, the only ISFSI information he receives comes from the
licensee.

No Formalized Agencywide Training Program Exists

ISFSI safety inspectors do not have a consistent understanding
of agency requirements because a formalized agencywide
training program clearly establishing and communicating
performance expectations, and requiring training on critical
inspection activities, does not exist. Although the agency is in
the process of developing an agencywide formal qualification
program, this task is not complete.

Compromised Oversight Can Occur

When training requirements vary among staff, compromised
oversight of ISFSI safety inspections can occur. Specifically,
there is an increased potential that inspections will overlook
discrepancies, resulting in an increased risk to public health and
safety.



                              12
   Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


Recommendation

OIG recommends that the Executive Director for Operations:

1. Develop and implement a formalized agencywide ISFSI
   safety inspector training program.




                             13
         Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


B. Routine ISFSI Inspection Frequency Varies Among Regions

     The period between routine ISFSI inspections varies among
     regions from 1 to almost 6 years. Although NRC expects a level
     of consistency in the performance of ISFSI inspections,
     inspection frequencies vary because the frequency required to
     conduct routine ISFSI inspections is not clearly defined.
     Routine ISFSI safety inspections could be delayed indefinitely
     without clearly defined inspection frequency guidance,
     potentially increasing the risk to public health and safety.

     Consistency in the Performance of ISFSI Inspections

     The expected receipt of applications to construct and operate
     new nuclear power plants, and to dispose of high-level
     radioactive waste, are two of the major challenges potentially
     facing the NRC over the next several years. NRC strives to be
     a stable regulator in an ever changing and dynamic
     environment. To that end, NRC expects a level of consistency
     in the performance of ISFSI inspections. NRC’s guidance not
     only defines inspection program requirements, it also serves as
     a framework intended to achieve consistency in the
     performance of ISFSI inspections.




     Figure 6. Fuel assembly loading at the Brunswick Nuclear Power Plant
     Source: OIG, NRC

                                   14
                     Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


                Routine ISFSI Inspection Frequency Varies Among Regions

                Currently the time between routine inspections at ISFSIs varies
                from 1 to almost 6 years. Reviewing the two most recent
                inspection reports for all ISFSIs currently storing spent nuclear
                fuel (110 reports), OIG found that the shortest period between
                routine ISFSI safety inspections was 1 year. OIG also found
                that the longest period between routine ISFSI safety inspections
                was almost 6 years. The routine inspection sequence most
                often occurring was a 2-year frequency.

                Routine Inspection Frequency Is Not Clearly Defined

                The frequency required to conduct routine ISFSI inspections is
                not clearly defined. Routine inspections occur once an ISFSI is
                operational. NRC’s IMC 2690 defines routine inspection
                frequencies as “when required” and states that an inspection
                effort should be performed when the activity6 occurs at the
                facility. The manual chapter then refers to either an appendix or
                a guidance section of a specific inspection procedure for
                additional clarification. The "when required" performance
                standard described in the appendixes does not specifically state
                a required periodicity. The definition only states that the
                inspection effort “should” be performed when the activity occurs.
                However, “should” does not indicate a requirement that an
                activity “must” occur with any definitive frequency.

                Inspections Could Be Delayed

                Without clearly defined minimum inspection frequency guidance
                for routine ISFSI safety inspections, inspections could be
                delayed indefinitely. Licensees may become complacent
                knowing that NRC is not required to inspect their facility at any




6
 ISFSI activities, which occur in four phases, include the following:
Phase 1 - Design, fabrication, and construction.
Phase 2 - Preoperational testing, including dry runs.
Phase 3 - Spent fuel loading and unloading operations.
Phase 4 - Storage monitoring of the loaded ISFSI.
                                               15
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


defined minimum frequency, potentially putting the public’s
health and safety at an increased risk. Therefore, it is important
for NRC to clarify its guidance to define a minimum frequency to
conduct routine ISFSI inspection activities.

Recommendation

OIG recommends that the Executive Director for Operations:

2. Modify inspection guidance to include a minimum inspection
   frequency for conducting routine ISFSI safety inspections.




                              16
             Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Develop and implement a formalized agencywide ISFSI
             safety inspector training program.

          2. Modify inspection guidance to include a minimum inspection
             frequency for conducting routine ISFSI safety inspections.



V.    AGENCY COMMENTS

          An exit conference was held with the agency on April 26, 2011.
          At this meeting, agency management provided supplemental
          information that has been incorporated into this report as
          appropriate. As a result, agency management stated their
          general agreement with the findings and recommendations in
          this report and opted not to provide formal comments for
          inclusion in this report.




                                       17
                      Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety
                                                                                       Appendix A


Waste Confidence Decision

                 On September 18, 1990, NRC issued a decision reaffirming and
                 revising, in part, the five Waste Confidence Findings reached in
                 its 1984 Waste Confidence Decision. The 1984 decision and
                 the 1990 update to the decision were products of rulemaking
                 proceedings designed to assess the degree of assurance that
                 radioactive wastes generated by nuclear power plants can be
                 safely disposed of, to determine when disposal or offsite storage
                 would be available, and to determine whether radioactive
                 wastes can be safely stored onsite past the expiration of
                 existing facility licenses until offsite disposal or storage is
                 available. In 2008, the Commission decided to undertake a
                 review of its Waste Confidence Decision and Rule as part of an
                 effort to enhance the efficiency of combined license proceedings
                 for applications for nuclear power plant licensees anticipated in
                 the near future by ensuring that the findings are up to date. The
                 Commission has considered developments since 1990 and has
                 reviewed its five prior findings and supporting environmental
                 analysis.7 As a result of this review, the Commission revised
                 the second and fourth findings in the Waste Confidence
                 Decision. This decision was published in the Federal Register
                 on December 23, 2010, and is as follows:

                         Finding 2: The Commission finds reasonable assurance
                         that sufficient mined geologic repository capacity will be
                         available to dispose of the commercial high-level
                         radioactive waste and spent fuel generated in any reactor
                         when necessary.

                         Finding 4: The Commission finds reasonable assurance
                         that, if necessary, spent fuel generated in any reactor can
                         be stored safely without significant environmental
                         impacts for at least 60 years beyond the licensed life for
                         operation (which may include the term of a revised or




7
    Federal Register 75:246 (December 23, 2010) pages 81037-81076.
                                                18
   Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


      renewed license) of that reactor in a combination of
      storage in its spent fuel storage basin and either onsite or
      offsite independent spent fuel storage installations.

The Commission also reaffirmed the three remaining findings.
The reaffirmed findings follow:

      Finding 1: The Commission finds reasonable assurance
      that safe disposal of high-level radioactive waste and
      spent fuel in a mined geologic repository is technically
      feasible.

      Finding 3: The Commission finds reasonable assurance
      that high-level radioactive waste and spent fuel will be
      managed in a safe manner until sufficient repository
      capacity is available to assure the safe disposal of all
      high-level radioactive waste and spent fuel.

      Finding 5: The Commission finds reasonable assurance
      that safe, independent onsite spent fuel storage or offsite
      spent fuel storage will be made available if such storage
      capacity is needed.




                             19
           Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety
                                                                            Appendix B


SCOPE AND METHODOLOGY

       The audit objective was to determine if NRC has the requisite
       processes in place for reviewing ISFSIs safety. The audit
       focused on reviewing the oversight and implementation of the
       safety inspection program for dry storage of spent reactor fuel at
       ISFSIs through an examination of documents, interviews, and
       observations.

       OIG reviewed relevant Federal legislation pertaining to NRC’s
       regulatory authorities to oversee ISFSIs, including the Atomic
       Energy Act of 1954, as amended; the Energy Reorganization
       Act of 1974; and the Nuclear Waste Policy Act of 1982. OIG
       also reviewed agency guidance including inspection manual
       chapters, inspection procedures, and office instructions that
       pertain to the inspection of ISFSIs. OIG also reviewed NRC and
       industry reports, briefings, and presentations that address the
       relevant aspects of used nuclear fuel storage and the safety
       inspections of ISFSIs in the United States.

       OIG also reviewed records during the course of the audit.
       Specifically, the audit team reviewed 110 ISFSI safety
       inspection reports to determine the frequency of ISFSI safety
       specific inspections. Documentation pertaining to the allocation
       of resources for the ISFSI safety inspection program was also
       reviewed.

       OIG interviewed inspectors and managers from headquarters
       (Rockville, MD) and each of the four regions (Region I, King of
       Prussia, PA; Region II, Atlanta, GA; Region III, Lisle, IL; and
       Region IV, Arlington, TX) who participate in activities related to
       ISFSIs. These interviews were conducted to obtain staff
       insights into the oversight and implementation of the ISFSI
       inspection program. More specifically, OIG conducted
       telephone interviews with 64 resident inspectors (including
       senior resident inspectors) working at each of the 45 operating
       reactor sites with ISFSIs storing spent nuclear fuel.



                                     20
    Audit of NRC’s Oversight of Independent Spent Fuel Storage Installations Safety


The audit team also observed the following inspection activities:

       Initial fuel loading campaign at the Brunswick nuclear
       power plant in Southport, North Carolina.

       NRC inspection at Holtec International Headquarters in
       Marlton, New Jersey.

       NRC safety inspection at the Connecticut Yankee Atomic
       Power Company ISFSI in East Hampton, Connecticut.

We conducted this performance audit at NRC headquarters,
NRC’s Region I office, and at licensees in Regions I and II from
September 2010 through February 2011 in accordance with
generally accepted Government auditing standards. Those
standards require that the audit is planned and performed with
the objective of obtaining sufficient, appropriate evidence to
provide a reasonable basis for any findings and conclusions
based on the stated audit objective. OIG believes that the
evidence obtained provides a reasonable basis for the report
findings and conclusions based on the audit objective. Internal
controls related to the audit objective were reviewed and
analyzed. Throughout the audit, auditors were aware of the
possibility or existence of fraud, waste, or misuse in the
program. The audit work was conducted by Sherri Miotla, Team
Leader; Robert Woodward, Audit Manager; Kevin Nietmann,
Senior Technical Advisor; Cathy Colleli, Senior Management
Analyst; Maxine Lorette, Senior Auditor; Yvette Mabry, Senior
Auditor; and Kristin Lipuma, Management Analyst.




                              21
